 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  THE COLUMBUS URBAN LEAGUE
CLAIMED SOME UNALLOWABLE COSTS
         TO HEAD START



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Sheri L. Fulcher
                                              Regional Inspector General

                                                    September 2012
                                                     A-05-11-00053
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The Head Start program provides grants to local public and private
non-profit and for-profit agencies to provide comprehensive child development services to
economically disadvantaged children and families, with a special focus on helping preschoolers
develop the early reading and math skills they need to be successful in school.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided an additional $1 billion to expand the Head Start program during
FYs 2009 and 2010. These funds were intended for activities such as expanding enrollment,
funding cost-of-living wage increases for grantees, upgrading centers and classrooms, and
bolstering training and technical assistance.

The Columbus Urban League (the grantee) is a 93-year-old, non-profit organization that was
established to assist disadvantaged families in the community, and offer full-day, part-
day, home-based and childcare partnership options. The program can provide services for up to
925 children. The grantee’s Head Start program is funded primarily through Federal Head Start
grants. During our review period, the grantee claimed Head Start program costs totaling
$6,396,640 for regular operations from November 1, 2009, through October 31, 2010; Head Start
Recovery Act expansion costs of $375,582 from September 30, 2009, through September 29,
2010; and $461,778 for cost-of-living adjustments (COLA) and quality improvements from July
1, 2009, through September 30, 2010. The grantee also receives funds from other Federal and
State sources.

OBJECTIVE

Our objective was to determine whether costs claimed by the grantee were allowable under the
terms of the grant and applicable Federal regulations and to determine whether the grantee’s
financial management practices and systems met Federal requirements.

SUMMARY OF FINDINGS

Of the $177,886 in direct costs that we reviewed, the grantee claimed $164,784 that was
allowable under the terms of the grants and applicable Federal regulations. However, the grantee
claimed Federal reimbursement of as much as $13,102 for unreasonable costs associated with
travel and attendance at an out-of-State conference. In addition, although the grantee generally
followed an acceptable methodology for allocating administrative and executive staff salaries, it
inappropriately used a 2-week time period when calculating its monthly employee activity.

                                                i
RECOMMENDATIONS

We recommend that OHS require the grantee to:

       refund $13,102, or amounts determined to be unreasonable, for conference attendance
       costs and

       calculate indirect cost percentages based on the entire month of employee activity.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the grantee did not concur with the first
recommendation but concurred with the second. Regarding the first recommendation, the
grantee stated that the National Urban League conference provided an agenda that was in line
with Head Start objectives, was for a grant-related purpose, and was an authorized Head Start
activity. The grantee stated that it was in compliance with Federal grant policies and procedures
when it decided to increase its initial travel and conference fees budget without prior approval.
The grantee said that the conference agenda, the consideration of benefits to Head Start children
and families, and the grantee’s multidisciplinary approach justified the conference attendance of
the 17 individuals. The grantee’s comments, excluding attachments related to findings or issues
not in this report, are included as Appendix B.

After reviewing the grantee’s comments, we maintain that the grantee claimed unreasonable
costs associated with travel and attendance for the out-of-State conference. We recognize that
conference training is an ordinary and necessary expense for the performance of the award and is
not prohibited under Federal and State laws and regulations. However, the number of people
sent to the National Urban League conference was excessive and deviated significantly from the
practices of the organization. Additionally, when deciding to send such a large group of
employees and parents to an out-of-State conference, the grantee did not act with prudence when
considering its financial responsibilities to its clients, the public at large, and the Federal
Government.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF concurred with our recommendations. ACF’s
comments are included in their entirety as Appendix C.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION...........................................................................................................1

     BACKGROUND ........................................................................................................1
       Federal Head Start Program ..................................................................................1
       Columbus Urban League ......................................................................................1
       Federal Requirements for Head Start Grantees ....................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
       Objective ...............................................................................................................2
       Scope .....................................................................................................................2
       Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .................................................................3

     UNALLOWABLE COSTS ........................................................................................3

     INDIRECT COST ALLOCATION ............................................................................4
        Federal Requirements ...........................................................................................4
        Indirect Cost Allocation Methodology .................................................................5

     RECOMMENDATIONS ............................................................................................5

     GRANTEE COMMENTS AND
     OFFICE OF INSPECTOR GENERAL RESPONSE .................................................5

     ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS………...6

     OTHER MATTER ......................................................................................................6

APPENDIXES:

     A: COLUMBUS URBAN LEAGUE’S IN-KIND PARENT/CHILD IN-HOME
        ACTIVITIES FORM

     B: COLUMBUS URBAN LEAGUE’S COMMENTS

     C: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The Head Start program provides grants to local public and private
non-profit and for-profit agencies to provide comprehensive child development services to
economically disadvantaged children and families, with a special focus on helping preschoolers
develop the early reading and math skills they need to be successful in school.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided an additional $1 billion to expand the Head Start program during
FYs 2009 and 2010. These funds were intended for activities such as expanding enrollment,
funding cost-of-living wage increases for grantees, upgrading centers and classrooms, and
bolstering training and technical assistance.

Columbus Urban League

The Columbus Urban League (the grantee) is a 93-year-old, non-profit organization that was
established to assist disadvantaged families in the community, and offer full-day, part-
day, home-based and childcare partnership options. The program can provide services for up to
925 children. The grantee’s Head Start program is funded primarily through Federal Head Start
grants. During our review period, the grantee claimed Head Start program costs totaling
$6,396,640 for regular operations from November 1, 2009, through October 31, 2010; Head Start
Recovery Act expansion costs of $375,582 from September 30, 2009, through September 29,
2010; and $461,778 for cost-of-living adjustments (COLA) and quality improvements from July
1, 2009, through September 30, 2010. The grantee also receives funds from other Federal and
State sources.

Federal Requirements for Head Start Grantees

Regulations at 45 CFR 1301—1311 establish rules for program operation, administration, and
grants management for all grants awarded under the Head Start Act. 45 CFR Part 74 establishes
uniform administrative requirements for grants awarded to non-profit and commercial
organizations. The allowability of costs incurred by non-profit organizations is determined in
accordance with the provisions of 2 CFR pt. 230 (Office of Management and Budget (OMB)
Circular A-122), Cost Principles for Non-Profit Organizations.
Pursuant to 2 CFR pt. 230, Appendix A, § A.2, “[t]o be allowable under an award, costs must …
be reasonable for the performance of the award, and be adequately documented.” Additionally,
230, Appendix B, § 8(m)(1) states, the distribution of salaries and wages must be supported by
personnel activity reports.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by the grantee were allowable under the
terms of the grant and applicable Federal regulations and to determine whether the grantee’s
financial management practices and systems met Federal requirements.

Scope

We performed this limited scope review in response to a request from ACF. Therefore, we did
not perform an overall assessment of the grantee’s internal control structure. Rather, we
reviewed only the internal controls that pertained to our objective. Our review period was July 1,
2009, through October 31, 2010. During the review period, the grantee claimed $7,234,000. We
reviewed the allocation methodology associated with $755,445 in executive staff salary costs.
We also reviewed $177,886 in direct costs claimed by the grantee.

We performed our field work at the grantee’s office in Columbus, Ohio from March through
December 2011.

Methodology

To accomplish our objective, we:

        reviewed applicable Federal laws and regulations pertaining to Head Start operations and
        Recovery Act projects, and the Federal Head Start program guidance related to reporting
        expenditures for regular operations;

        reviewed OHS program and policy announcements for the Head Start program;

        reviewed the grantee’s bylaws, board of directors meeting minutes, and organizational
        chart;

        reviewed the grantee’s policies and procedures;

        reviewed the grantee’s audited and unaudited financial statements and supporting
        documentation;

        held discussions with grantee officials related to the grantee’s policies, procedures, and
        methodology for claiming Head Start program expenditures;
       judgmentally selected 26 checks for Head Start grant expenses, from the period July
       through September 2010, totaling $177,886;

       obtained and reviewed final annual Financial Status Reports (SF-269) for:

           o November 1, 2009, through October 31, 2010, for Head Start operations,

           o September 30, 2009, through September 29, 2010, for Recovery Act expansion,

           o July 1, 2009, through September 30, 2010, for Recovery Act COLA and quality
             improvement; and

       reviewed a random sample of in-kind contributions for parent/child in-home activities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $177,886 in direct costs that we reviewed, the grantee claimed $164,784 that was
allowable under the terms of the grants and applicable Federal regulations. However, the grantee
claimed Federal reimbursement of as much as $13,102 for unreasonable costs associated with
travel and attendance at an out-of-State conference. In addition, although the grantee generally
followed an acceptable methodology for allocating administrative and executive staff salaries, it
inappropriately used a 2-week time period when calculating its monthly employee activity.

The deficiencies occurred because the grantee did not establish adequate financial procedures
and controls. As a result, Federal program funds may be at risk of not being properly accounted
for or expended in accordance with Federal requirements.

UNALLOWABLE COSTS

Pursuant to 2 CFR pt. 230 (OMB Circular A-122), Appendix A, § A.2, “[t]o be allowable under
an award, costs must … [b]e reasonable for the performance of the award, and be adequately
documented.” Factors used in the determination of reasonableness are listed in 2 CFR Pt. 230,
App. A.3, and include: (a) whether the cost is of a type generally recognized as ordinary and
necessary for the operation of the organization or the performance of the award; (b) the restraints
or requirements imposed by such factors as generally accepted sound business practices, arms
length bargaining, Federal and State laws and regulations, and terms and conditions of the award;
(c) whether the individuals concerned acted with prudence in the circumstances, considering
their responsibilities to the organization, its members, employees, and clients, the public at large,
and the Federal Government; and, (d) significant deviations from the established practices of the
organization which may unjustifiably increase the award costs.
Pursuant to 2 CFR pt. 230 (OMB Circular A-122), Appendix B, § B.29, costs of meetings and
conferences, the primary purpose of which is the dissemination of technical information, are
allowable. This includes costs of meals, transportation, rental of facilities, speakers’ fees, and
other items incidental to such meetings or conferences.

The grantee claimed as much as $13,102 for unreasonable costs associated with travel and
attendance at an out-of-State conference. The grantee’s budget included $8,000 to send six
people to the 2010 National Urban League conference in Washington, D.C. However, the
grantee sent a total of 17 persons to the conference. We obtained documentation of costs
charged to the grant totaling $21,102 for 17 individuals, which consisted of grantee officials,
advocates, teachers, a parent, and a cook.

Although the cost of a conference is generally recognized as ordinary and necessary for the
performance of the award and is not prohibited under Federal and State laws and regulations, the
grantee sent almost three times the number of people budgeted and paid more than $13,000 more
than the amount included in the grant budget. The number of people sent to the National Urban
League conference deviated significantly from the practices of the organization in 2008, 2009,
and 2011 when 6, 11, and 5 persons, respectively, attended.

INDIRECT COST ALLOCATION

Federal Requirements

Pursuant to 2 CFR § 230, Appendix A, part C (1) Indirect Costs, indirect costs are those that
have been incurred for common and joint objectives and cannot be readily identified with a
particular final cost objective. After direct costs have been determined and assigned directly to
awards or other work as appropriate, indirect costs are those remaining to be allocated to other
benefiting cost objectives.

Pursuant to 2 CFR § 230, Appendix A, part D (3) Allocation of Indirect Costs and Determination
of Indirect Cost Rates, where an organization has several major functions which benefit from its
indirect costs in varying degrees, allocation of indirect costs may require the accumulation of
such costs into separate cost groupings which then are allocated individually to benefiting
functions by means of a base which best measures the relative degree of benefit.

According to 2 CFR pt. 230, Appendix B, § 8(m), the distribution of salaries and wages must be
supported by personnel activity reports. The activity reports maintained by nonprofit
organizations must meet the following standards:

       reflect an after-the-fact distribution of the actual activity of each employee,

       account for the total activity for which each employee is compensated,

       be signed by the employee or by a responsible supervisory official having firsthand
       knowledge of the activities performed, and
       be prepared at least monthly and coincide with one or more pay periods.

Indirect Cost Allocation Methodology

Our review focused on the grantee’s methodology for allocating indirect costs associated with
administrative and executive staff salaries. Salaries and fringe benefits for administrative and
executive staff are first charged directly to the project for which identifiable services have been
provided. The remaining salary expense becomes part of the administrative cost pool and is
allocated to each project based on the percentage of each project’s employee full-time equivalent
(FTE) count to all projects FTE count. The FTE count and indirect allocation percentage are
calculated monthly and are based on after-the-fact distribution of the actual activity of each
employee, which are supported by signed activity reports.

Although the grantee generally followed an acceptable methodology for allocating administrative
and executive staff salaries, the grantee inappropriately used a two-week time period when
calculating its monthly FTE counts. Using a two-week period results in an estimate of activity
for the remaining period of time in each month’s calculation. Without using signed activity
reports for the entire month, the grantee is assuming that the same staff worked on the same
projects for the second half of the month. The estimated monthly FTE may not accurately
represent time spent on the grant and could result in an inappropriate allocation to the grant and
other projects. The monthly FTE counts should have been based on the total monthly activity for
which each employee is compensated in accordance with Federal requirements.

RECOMMENDATIONS

We recommend that OHS require the grantee to:

       refund $13,102, or amounts determined to be unreasonable, for conference attendance
       costs and

       calculate indirect cost percentages based on the entire month of employee activity.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the grantee did not concur with the first
recommendation but concurred with the second. Regarding the first recommendation, the
grantee stated that the National Urban League conference provided an agenda that was in line
with Head Start objectives, was for a grant-related purpose, and was an authorized Head Start
activity. The grantee stated that it was in compliance with Federal grant policies and procedures
when it decided to increase its initial travel and conference fees budget without prior approval.
The grantee said that the conference agenda, the consideration of benefits to Head Start children
and families, and the grantee’s multidisciplinary approach justified the conference attendance of
the 17 individuals. The grantee’s comments, excluding attachments related to findings or issues
not in this report, are included as Appendix B.
After reviewing the grantee’s comments, we maintain that the grantee claimed unreasonable
costs associated with travel and attendance for the out-of-State conference. We recognize that
conference training is an ordinary and necessary expense for the performance of the award and is
not prohibited under Federal and State laws and regulations. However, the number of people
sent to the National Urban League conference was excessive and deviated significantly from the
practices of the organization. Additionally, when deciding to send such a large group of
employees and parents to an out-of-State conference, the grantee did not act with prudence when
considering its financial responsibilities to its clients, the public at large, and the Federal
Government.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF concurred with our recommendations. ACF’s
comments are included in their entirety as Appendix C.

       OTHER MATTER: EXCESSIVE IN-KIND CONTRIBUTIONS CLAIMED

The grantee did not report in-kind contributions in compliance with Federal Head Start
regulations. The hourly rate used for in-kind contributions for parent/child in-home activities
was excessive and sampled activities did not meet Federal regulations.

Federal regulations at 45 CFR § 74.23(d) state that “Volunteer services furnished by professional
and technical personnel, consultants, and other skilled and unskilled labor may be counted as
cost sharing or matching if the service is an integral and necessary part of an approved project or
program. Rates for volunteer services shall be consistent with those paid for similar work in the
recipient’s organization.” OHS guidance (OHS–PC–A–006) states that "the valuation of the
parent’s time should, unless a program can demonstrate otherwise, be valued at the rate of a
teacher’s assistant.” Further clarification is provided in OHS guidance (OHS–PC–A–048) which
states: “A volunteer’s rate should be determined based on the nature of the work being done and
the experience and education brought to the job by the volunteer. A program may include, in
this valuation, a fringe benefit rate for the volunteer that is comparable to the grantee’s average
fringe benefit rate.”

The grantee used a volunteer hourly rate for parent/child in-home activities of $18.57 for
November and December 2009 and $19.14 after a 3.06 percent COLA increase for January
through October 2010. Based on our review of the grantee’s payroll records, we determined that
the hourly rate of a teacher’s assistant plus the cost of fringe benefits should have been $15.63
for November and December 2009 and $16.07 from January through October 2010.

OHS guidance (OHS–PC–A–077) states:

       “Parent involvement activities that provide a good or service to benefit the
       program is considered an allowable cost for an in-kind match. Parent
       involvement activities that primarily benefit the parent and their child are not
       considered an allowable cost for an in-kind match. Parent involvement activities
       that primarily benefit the parent and child include items such as parent
       orientation; home visits including pre-natal, newborn or postpartum visits; staff-
       teacher conferences; socialization activities; parent education or training;
       meetings and activities related to family goal setting with the family partnership
       agreement; participation in specific activities that are related to a child’s
       developmental or educational plan, Individualized Family Service Plan or Individualized
       Education Plan; field trips; or transition meetings.”

We reviewed a random sample of 100 in-kind contributions for parent/child in-home activities
from a population of 11,340 activities. Based on our sample review, we found that 22 activities
did not meet Federal requirements to qualify for an in-kind match. One of the sampled in-kind
contributions was for time and mileage associated with a Head Start family on an out-of-State
trip. Another sampled in-kind contribution was for a parent’s time for sports activities and
watching a movie with his/her Head Start child. General parenting duties, or activities that
primarily benefit parents and their own children, may not be included as in-kind matching
contributions. See Appendix A for example details.
APPENDIXES
N
"""
                                 (::)    ,'umbus
  0
......                                  Lirban league               Columbus Urbai>. ~eague Bead Start
            0
           -
  ~
 00
                                                                         Center Based In-Ki nd Form
 ro        ...:I
~                               Center Center: Madison E.S. Head Start
           :I:
            U                   Mont h:_October __        Year: 2010 Child's
           ---
           Eo-<
           Z
           [;:I:;l
           ~
           ~
                                                                                                                                                                   "' _     ~
           0
           Z
           ~~
                                Date     Stort
                                         Time
                                                        End 

                                                        Time 

                                                                 Parent At Hone Activity        Hours!
                                                                                               ~nnute.
                                                                                                         Round l1'er Item
                                                                                                          Trip
                                                                                                         MHos
                                                                                                                 QWlntity
                                                                                                                Donated

                                                                                                                            I
                                                                                                                            $Value of I Tolal
                                                                                                                            Donation!
                                                                                                                            or Salary

                                                                                                                                                   Person
                                                                                                                                                Enlerlng Data
                                                                                                                                                lot. Genesis


                                                                                                                                                                   rooD
                                                                                                                                                                 ...:::: ro
                                                                                                                                                                   ~  .­
                                                                                                                                                                  ... t+=i
                                                                                                                                                                  ... C
                                                                                                                                                                   a,)
                                                                                                                                                                           ~
          Zo::
          -0
          'f1 ...
                                                                                                                                                                 -0-0
                                                                                                                                                                  ~
                                                                                                                                                                   ~  .­   ;>. 

          [;:I:;loo                                                                                                                                              "'i)~

          ~ [;:I:;l                                                                                                                                              -0 t::
          0-          ....                                                                                                                                        ~ 0
                                                                                                                                                                ...:::: '"
          < t:          Q,j
                                                                                                                                                                E-< ...
          [;:I:;l >   Q.                                                                                                                                            1&
          ...:1­                                                                                                                                                ~ :g
          ZEo-<         ~                                                                                                                                       o .0;
          <U            ><I                                                                                                                                     Z-c
          ~~
                      [;:I:;l
                                                                                                                                                                --a:-      0
          ~~
                                                                                                                                                                   ~
                                                                                                                                                                  t:: .­
                                                                                                                                                                          ... 

                                                                                                                                                                           U
                                                                                                                                                                ~ '"~
                                                                                                                                                                           ~
         000
          ~:I:                                                                                                                                                  :- ro
         Ill'
         ~~                                                                                                                                                      ...o~
                                                                                                                                                                  U oD
                                                                                                                                                                           U
         ~                                                                                                                                                        8.-0
         ...:I                                                                                                                                                    '"t::    ~
                                                                                                                                                                          ....     t::.
         0                                                                                                                                                      .......    U       0

         U                                                                                                                                                      ~
                                                                                                                                                                  o -0
                                                                                                                                                                          ~      .~
                                                                                                                                                                                   ro
                                                                                                                                                                 ~
                                                                                                                                                                 U        ~
                                                                                                                                                                          _       S
                                                                                                                                                                                  ...
         <                                                                                                                                                      t.::
                                                                                                                                                                <i-i~<+=<
                                                                                                                                                                          ...     0
         ><                                                                                                                                                     0.3 .5
         Q
         Z
         [;:I:;l
         ~
         ~
N
'E
     r=
     0-• .".~ Urban LNg""
N
            ~\~             M,mcL
l           .. :f)ri!                   Year:
                                                                                                                                                    00    _
                                                                                                                                                     .~       "
                                                                                                                                                    -= •
                        out! Pick                                                                                                                   ~~
     D••     In/Drop
             OffTIm~    ."TI_
                                     SigJlatlin I Slg.. In I Ou«ipdQll of Prod""t or Senices 

                                    Donated I Dud .. Performed I VohJGteer Al:tMty / Ontor I 

                                                                                                 .0"",
                                                                                                 ',"",w
                                                                                                          Ro"""   Per Jr.m
                                                                                                                  QuaD.tity
                                                                                                                              SVllue of
                                                                                                                              DonatiWII    "'"      2'5
                                                                                                                                                    ~~
                                                                                                                  DOllllted   or Salary
                                                                                                                                                    s·-
                                                            """" 
                                                                                  " "§
                                                                                                                                                    Qj=
                                                                                                                                                    ~
                                                                                                                                                    -="       0
                                                                                                                                                              00
                                                                                                                                                     ~
                                                                                                                                                    f-< "
                                                                                                                                                              :;:
                                                                                                                                                    '0.5
                                                                                                                                                    Zi
                                                                                                                                                      "­
                                                                                                                                                    E         u
                                                                                                                                                    5";:;
                                                                                                                                                    -'" "
                                                                                                                                                       ~
                                                                                                                                                    is B
                                                                                                                                                    "~
                                                                                                                                                     ~~
                                                                                                                                                    .s ~
                                                                                                                                                    "Q"'O'ia
                                                                                                                                                                    ~
                                                                                                                                                     IJ ~           a
                                                                                                                                                    SH'E

                                                                                                                                                    0.0 ._
     Worm.atioo Bdow Cowplet~
                                                                                                                                          :n~.V'1
                                                                                                     Page 1 of 16


APPENDIX B: COLUMBUS URBAN LEAGUE'S COMMENTS


                                                                 Columbus
                                                                 Urban League           I   788 Mount Vernon Avenuj
                                                                                            Columbus, Ohio 43203·140

May 15, 2012
                                                                                        I   P 614 257 6300


                                                                                            www.cul.org
Sheri l. Fulcher
Regional Inspector General for Audit Services                                           I   info@cul.org

Office of Inspector General
Office of Audit Services Services, Region V
                                                                                         Empowering Communities.
233 North Michigan, Suite 1360                                                           Changing Lives.
Chicago,ll60601

Re: Report Number A-05-11-00053

Dear Ms. Fulcher:

This communication is in response to your letter dated May 9, 2012 regarding the draft report entitled
The Columbus Urban League Claimed Some Allowable Costs to Head Start. The following statements
reflect The Columbus Urban league's (CUl) concurrence or non-concurrence with the Office of Inspector
General's (OIG) recommendations for the review period of July 1, 2009 through October 31,2010.

Recommendation One: Refund $13,102, or amounts determined to be unreasonable, for conference
attendance costs.

CUl- does not concur with this recommendation.

The National Urban League develops a national agenda for its ninety three affiliates which serves as a
blueprint for providing programs that become the voice of advocacy for urban America . Each year, the
National Urban League annual conference focuses on major action priorities and showcases best
practices and strategies that will improve the chances for advancement and progress of those living in
American's urban cities. Education, health and quality of life, jobs, and housing are areas of concerns
faced by our Head Start families. Additionally, as a part of the National Urban League's "Opportunity
Compact: Blueprint for Economic Equality - a research-based document meant to prompt action - one
of the priorities is Opportunity to Thrive (Children) which is to commit to mandatory early childhood
education beginning at age three and to establish policies that provide tools for working families to
become economically self-sufficient. Both of these priorities are in line with Head Start objectives.
Additionally, the focus on preventing childhood obesity which research shows has more than tripled in
the past three years according to the Centers of Disease Control and Prevention, is an area of focus for
the leagues' health care work platform.

The approval of staff to attend the National Urban League (NUL) 2010 Conference was for a grant
related purpose and was an authorized Head Start activity. Costs were allocable as the conference
would advance work under the grant by providing Head Start staff with exposure and knowledge to
approach many of the social and economic issues facing Head Start families and children as well as
address national concerns related to teaching strategies. CUl Head Start is a program offered in support
of the agency's mission and goals to empower communities and change lives. The Head Start program is
enriched with access to other community services that enhances family support, economic development
and stability.
                                                                                                          Page 2 of 16




Sheri l. Fulcher                          May 15, 2012                                               Page 2



CUL was in compliance with federal grant policies and procedures when the decision was made
to increase additional travel and conference fees from the initial budget projection without
prior approval. According to the Federal Health and Human Services' Grant Policy Statement
dated January 2007, Terms and Conditions of Award, Part II, Prior Approval Requirements,
Change in Scope, Page S4:

        "Significant rebudgeting occurs when, under a grant with a Federal share exceeding
        $100,000, cumulative transfers among direct cost budget categories for the current budget
        period exceed 25 percent of the total approved budget (which includes direct and indirect
        costs, whether chargeable to Federal funds or required matching or cost sharing) for that
        budget period or $250,000, whichever is less."

CUL did not exceed $100,000 of cumulative transfers or $250,000 for the grant year 2010. Per
the grant policy guidelines, CUL was not required to request prior approval for the additional
staff sent to the conference and was in compliance with federal policies and procedures.

The CUl2010 Head Start budget originally projected expenditures of $8,000 to send a total of six Head
Start staff to the 2010 National league Conference. After review of the actual conference agenda and
consideration of the benefits to both CUl Head Start children and families, the decision was made to
send 17 Head Start staff and parents, all of whom make an impact on the results of the CUl's Head Start
program. CUl consistently determines use of federal Head Start funds by evaluating if costs are
reasonable and allowable. The NUL's 2010 conference focused on many of the social, educational and
economical ills, affecting Head Start families to include self sufficiency, family stability, and goal setting
(See Exhibit One - 2010 National Urban league Conference Agenda) .

 The various CUl Head Start staff and parents approved to attend the NUL 2010 Conference attended
workshops that supported their ability to have a greater impact on the families and communities served.
CUl is an agency that also provides a multitude of services for issues that plague the urban community
including access to and quality education, lack of employment, substance abuse, reentry from
incarceration, challenges specific to urban males, nutrition, and health issues. The CUl Head Start urban
families we serve are faced with these same issues.

CUl Head Start is a program that prides itself in focusing on family self-sufficiency and stability, and it is
imperative that we remain current on data, social concerns and barriers that impact urban families. The
NUL Conference hosted a variety of workshops and plenary sessions that provided social, educational
and economical insights for Head Start staff and parents.

Family Service Advocates (FSA) work with families to determine needs assessments, provide goal
setting, and promote family self sufficiency. It is important for FSAs to not only understand the needs
and resources available for parents and children, but also the national trends impacting those we serve
through inSight, awareness and networking, i.e. fatherhood, re-entry issues and social ills. Attending
                                                                                                      Page 3 of 16




 Sheri L. Fulcher                         May 15, 2012 	                                          Page 3



 the workshops on creating a personal job plan and housing information was extremely beneficial for the
 FSAs in identifying and offering solutions to families.

 Parents are an integral part of the Head Start framework, and as partners of the program provide insight
 on program improvement. Upon return, the two parents shared knowledge and insights at the monthly
 Center Parent Meetings and Policy Councils.

 Cooks not only provide culinary services, but need to be abreast on nutritional issues that face children
 such as obesity. The NUL 2010 conference had a workshop on obesity in the Black community. The
 knowledge gained from the conference provided insights on addressing obesity in children and families.

 Teachers not only impact children' s lives but through daily contact have a direct impact on parents as
 well. The emphasis of workshops related to charter schools and data relative to high-school dropout
 rates emphasized the importance of providing effective training in early childhood education.

 Therefore, the multidisciplinary approach to receive training was justifiable.


                                                                                    1

 Recommendation Two: Refund $3,806 to the Federal Government for unallowable costs. 


 CUL - does not concur with this recommendation.

 Providing meals during mandatory trainings are a customary practice at CUL Head Start. Mandatory
 trainings during normal work hours improves attendance and employee knowledge (with consistent
 dissemination of information) which ensures enhanced delivery of service to children and families. In
 addition, CUL's Head Start policies and procedures indicate when it is allowable to purchase meals for
 staff and/or parents during meetings. Circular No. A-122, Revised May 10, 2004, Selected Items of Costs,
 13 a. indicates the following:


         13. 	      Employee morale, health, and welfare costs.
                    a. 	  The costs of employee information publications, health or first-aid clinics
                          andlor infirmaries, recreational activities, employee counseling services,
                          and any other expenses incurred in accordance with the non-profit
                          organization's established practice or custom for the improvement of
                          working conditions, employer-employee relations, employee morale, and
                          employee performance are allowable.

 CUL Head Start policy states staff attending mandatory trainings over four hours will receive a
 continental breakfast and/or light lunch (See Exhibit Two- Staff Training and Development Lunch Policy).
 Providing meals is therefore an established practice or custom of the agency.




1 Office of Inspector General Note-This recommendation is not applicable because
the finding or issue referred to by the auditee is not included in this report.
                                                                                                      Page 4 of 16




Sheri L. Fulcher                        May 15, 2012                                            Page 4

During the timeframe of August 16-25, 2010, CUL Head Start held its Third Annual Professional
Development Conference (See Exhibit Three).             The conference brochure provided professional
background of all presenters. While there was no workshop summary information listed in the
brochure, it is evident from the titles that dissemination of technical information was provided .

The CUL Team Build ing Meeting held on August 27, 2010 (See Exhibit Four) was an all-day off-site
training led by CUL Human Resources and Training staff. The training provided information related to
the full spectrum of community services available at the CUL. As a result of the information shared,
Head Start staff are better equipped to identify and address family stability, goal setting and self
sufficiency needs. CUL's Head Start program contributed $900 of the $1,600 for the food at this event.
CUL Head Start staff represents 67 percent of total agency staff. Therefore, the allocation of 57 percent
of Head Start funds for this event is justifiable.

The monthly Head Start Policy Council meeting was held on September 1, 2010 (See Exhibit Five) .
Parents, Head Start Center Volunteers, Community Liaisons, CUL Executives and Head Start staff attend
this mandatory monthly meeting which covers the timeframe of 12:30 p.m. to 2:00 p.m. The CUL Head
Start Policies and Procedures - Parents Meeting Meals Policy (See Exhibit Six) states meals will be
provided for parents and volunteers. Based on the above paragraph from Circular A-122 and the
subsequent description of occurrences, food is an allowable cost for this meeting.

Corrective Action: While CUL does not agree with the OIG's decision to reimburse the funds spent on
meals for the above listed meetings and/or trainings, in the future CUL Head Start will create a synopsis
for each training session clearly listing the type of technical information disseminated.

Recommendation Three: Calculate indirect cost percentages based on the entire month of employee
activity.

CUL concurs with this statement.

While CUL did follow a generally acceptable methodology for allocating administrative and executive
staff salaries, we inappropriately used a two-week time period when calculating the monthly HE counts.
CUL realizes that estimated monthly HE used to allocate administrative and executive staff time may
not have accurately reflected total time spent on the grant. Effective May 17, 2011 CUL implemented a
direct costing activity log which reflects actual hours worked by programs for all administrative and
executive staff, thereby ensuring actual time applied to the Head Start grant is expensed.

CUL Head Start believes it has operated the program with the utmost integrity and intention of following
standards, practices, and regulations. If you have questions concerning this response, please contact
Chief Financial Officer, Mary Love, at 614-372-2313 .

Sincerely,




Stephanie Hightower
President and CEO

Attachments: Exhibits One through Six
                                                                                                    Page 5 0f16


Annual Conterence                                                                                 Page 1 00

                                                                                      fy:hibi+ On€.­




  CENTENNIAL            SCHEDULE      SPEAKERS       EVENTS     SPONSORS      RESOURCES    REGISTER NO'




Schedule At-A-Glance

Wednesduy, July 2Rth           Thursday, July 29         Friday, July 30      Saturday, July 31

7:00 am - 8:00 am            GIr[LD FAMILV SESSION




8:00 am - 6:00 pm            REGlSTRATION OPEN




8:00 am -10:30 am            OPEN LNG CENTENNIAL PLENARY
                             SESSION r - THE STATE OF BlACK
                             AMERICA

                             HallE


                             Vemon E .Jordan, Jr,
                                   Hide Sl,eakel's


10:15 am   - 11:45 am        f'ONCURRENT WORKSHOPS


                             The Pl'Ospel'jty Pmmise: A Plan to Put
                             lkbanAmel'ica back to Work
                             Health SaYing QUI' Sons: EI1l,l)owel'ing the
                             r\thcal! Amel'ican Male
                             HealthcaI'e Obesity in the Black
                             C01/l1/l!l1zitl/: Tipping the Scale TowaI'ds a
                             Viable Solution



http://www.nul.org/20 1Oconference/schedulebt_ a_glance/20 10-07 -28                               S/))/2012
                                                                                                Page 6 of16


Annual Lonterence                                                                         Page 2 of 3


                                  Housing Predatol'1I Lending and Indtlstrll
                                  Scams: How to Protect Yourself
                                  Education Public School and p,'ivate School
                                  Privilege: Education Reform in America
                                  Jobs Creating a Personal Economic
                                  Recoverl/ Plan

                                     Hide Wo /'kshops


12 :30 pm - 2:30 pm               SALlrm        ro LEADERSHIP I.UNCHEON


                                  CENTENNIAL TOWN HALL ON EO\l(,A liON , lliE PASI      lOI)    YEARS
                                  OF BLACK EDUCATION




6:30 pm - 8 :30 pm                STATE OF THE URBAN LEAGUE ADDRESS




9:30 pm - 11:30 pm                WELCOME RECEl"llON
                                  The Kennedv Center




CENTENNlALSPONSORS
                                                                l>p 

 Walmart                  ~
                          ~
                                  at&t nld NationWide
                                           In.sural'tC4
                                                        
                              @omcast




l.£J20IO National Urbal1 League
All lights re5er\'~d,                  Tir.lelillS!   Plenary                   $ponsorsIJlp
                                                      ~                         OOQQrtunities




http://www.nul .org/201 Oconference/schedule _ at_ a_ glancel20 10-07 -28                       5/1 In012
                                                                                     Page 7 of 16


A1lI1uat Conterence                                                                Page 3 of3

120 Wall Street                                                   Y2lil!l
New York. NY 10005                                                ~
                                                                  Summit
iJlfl)(,vuu..l.prg
                                                                  ~
                                                                  ~
                                                                  lli/.Q
                                                                  Entertainment


                                                                  Pay of Service




http://www.nul.orgI20 1Oconference/schedule_at_a~lance/20 10-07 -28                 5/\112012
                                                                                              Page 8 of 16


Annual Conference                                                                         Page I of 3




  CENTENNIAL         SCHl'J)uLI~     SPEAKERS      EVENTS      SPONSORS   RESOURCES    REGISTER NO'




Plenary Sessions

Wednesday, July 28th          'l1lUrsday, July 29      Fliday, July 30    Satw'day, July 31

8:15 am - 10:00 am          PLENARY SESSION 11 - THE PRESIDENT
                            OFTHE lfNITEDSTA'fESOFAMRRlCA


                                   Show Sveakers




2:30 pm - 4:30 pm            PLENARYSESS10N          m - WHAl WILL BLACK AMERICA LOOK LIKE
                             IN 20251




http://www. nul.org/20 I Oconference/plenariesl20 I 0 -07-29                                  5/11/2012
                                                                                     Page 9 of 16


Annual Conterence 	                                                            Page 2 of3




PRINCIPAL CIRCLE


   Walmart             ,,, 	
                       "
                               ~
                               ~ at&t
                                       	
                                             TOYOTA 	
                                                              ..
                                                           BankofAmerica
                                                                                    @ome
                                                                                         dret




@2010 National Urban League     Centennial   ~

AU rights resely~d.
                                T1melrne 	   ~                      SOOI\SQrshlO
                                             ~                      Oooortunitles




http://www.nul.org/201 Oconference/pienaries/20 10-07-29                            511112012
                                                                                Page 10 ofl6


fUlIlUaJ   LOmerence                                                           Page 3 of 3

120 Wall Street                                           Yru!1!!
New York. NY 10005                                        WJ!wh!2
                                                          Summit
infovi.nn1.org
                                                          ~
                                                          ~
                                                          flu2Q
                                                          Entertainment


                                                          Day   of   Seryjce




http://www.nul.org/20JOconference/plenaries/201 0-07-29                         5111/2012
                                                                                                 Page 11 ofl6


Annual Conference                                                                                Page I of 3




 CENTENNIAL            SCHFDl'l f     SPEAKERS      EVENTS    SPONSORS       RESOURCES    REGISTER NO'




Schedule At-A-Glance

Wednesday, July 28th            Thursday, July 29       p"iclay, .lilly 30   Saturday, July 31

6:00   am - 7:00 am           CENTENNlAL VOLUNTEER DAY OF SERV((,E CONTTNEN1.'AL
                              BREAKFJ\sT AND PIW RALLY




7:00   am -11:00 am           CENrENNlAL VOLUN1.'EER DAY OJ' SERVICE




8:00   am - 5:00 pm           REGISTRA110N OPEN




10:30   am - 5:00 pm          EXPO HALL & CAREER FArR OPEN




12:30 pm   - 2:30 pm          NATlONAL('OUNCILOF lTRHAN LEAGlmGUlLDS LUNCHEON



                                    Show Speakers


                              LISTEN UP, VOICES FROM mE NFXTGENRR \ nON




http://www.nul.orgI2010conference/schedule_at_a_glance/201 0-07 -30                                511112012
                                                                                               Page 12 ofl6


Annual Conterence                                                                             Page 2 of 3




6:30 pm - 8:30 pm                 PRE-CONCERT RECEPTfON




6:30 pm - 8:30 pm                 URBAN LEAGUE LEA[)ERS & PARTNERS RECEPTtON




8:30 pm -11:30 pm                 NA'flONAL URBAN I.EAmm nENEFIT CONCERT
                                  Warner Theate,'




10 :00 pm - 11:59 pm              YOUNG PROFESSTONAU, LATE NIGHT EVENT




 PREMIUM CIRCLE

                     .   Allria                                e t J-ife
 [I Nationwide
      In~lIro1nC(J                                Its   /1     9(
                                                                      E*.onMobil




~12.01O National Urban League                                                      ~
Aliligi1ts resft"!'ed.               TIn' s iDe   ;::Ienar'(                       Sponsorship
                                                  ~                                OQOQrtynltles




http://www.nul.orgI201 0conference/schedule_at_ a~lance/20 10-07-30                                5/1112012
                                                                                        Page 13 of 16


Annual Conterence                                                                      Page 3 of3

120 Wall Street                                                     Y2lIlh
New Yorl.:, NY 10005                                                ~
                                                                    Summit
illfo(alllul.org
                                                                    ~
                                                                    ~
                                                                    £lsJl2
                                                                    Entertainment



                                                                    Day   of service




http://www.nul.org/20 1Oconference/schedule _at_a_glancel20 10-07 -30                    5/11/2012
                                                                                                Page 14 ofl6


Annual Conterence                                                                              Page 1 of 3




  CENTENNIAL               SCHEDl 1 J.,   SPEAKERS   EVENTS   SPONSORS     RESOURCES    REGISTER NO'




Schedule At-A-Glance

Wednesday, July 28th                 Thw'sday, July 29   Friday, July 30   Suturday, July 31

8:00   am - 3:00 pm                REGISTRATION OPEN




8:00 all! - 10:30   am             FAMILY S"'~"lSrON AND INTFRFArrH
                                   BREAKFAST




11:00 alll - 5:00 pm               N.U.L. EXPERIENCE EXPO f1ALL&
                                   CAREER FAIR FINAL DAY




12:00 pili   - 2:00 pili           WOMEN OF POWER LUNCHEON




12:30 pili   - 4:00 pm             NEW COLLEG E b\J R




http://www .nul.org/20 1Oconference/schedule_at_a_glance/20 10-07 -31                            5/11 /2012
                                                                                          Page 15 ofl6


1\JII1ual L-onterence                                                                   Page 2 of3


2:30pm - 4 :15pm                  DELEGATE ASSEMBJ_Y




7:30 pm - 10:30 pm                "VHlTNEYM. YOl.JNG .JR. AWARDS GALA




 PRINCIPAL CIRCLE


    Walmart                        ~ at&t             TOYOTA
                                                                        ..
                                                                     BankofAmerica            @om(
                                                                                                   drel




1.£12010 National LTrban League
All rights rfSE'ITea .                Tir.o..:lino:   ~                       Sponsorsh io
                                                      ~                       Oppgrtunities




http://www.nul.orgI20 1Oconference/schedule_at a~lance/20 10-07-31                            5/1112012
                                                                                    Page 16 of 16


AIlIluaJ coruerence                                                                Page 3 of3

120 Wall St reet              ~                                   Y2l!ll!
New York. NY 10005            ~                                   ~
                                                                  Summit
info(ltlnu1.org               ~
                                                                  ~
                                                                  ~
                                                                  ~
                                                                  Entertainment



                                                                  Day of service




http://www.nul.orgl20 1Oconference/schedule_ at_a~lancel20 10-07-31                 5/1112012
                                                                                                                           Page 1 0[2


APPENDIX C: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                CHIIirREN &< FAM IllES
                Office of Head Start I Region V   233 North Michigan Avenue, Suite 400, Chicago, IL 60601   eclkc.ohs.acf.hhs.gov



      Date:     August 16, 2012

      To:       Sheri Fulcher, Regional Inspector General for Audit Services
                Office of Inspector General

      From:     Kay Willmoth, Regional Program Manager
                Office of Head Start

                Eric P. Staples, Regional Grants Management Officer
                Office of Grants Management

      Subject: CIN A-05-11-00053 - Columbus Urban League

      The Office of Inspector General (OIG) , Office of Audit Services, provided the draft audit
      report for Columbus Urban League (CUL) , Common Ident~ication Number (CIN) A-05­
      11-00053, to the Department of Health and Human Services (DHHS) , Administration for
      Children and Families (ACF), Office of Head Start (OHS) for comments on July 20,
      2012. The audit report covered the period July 1, 2009 through October 31 , 2010, and
      examined expenditures under three separate grants awarded to Columbus Urban
      League (CUL) during that period , spec~ically Grant Numbers 05CH8269, 05SE8269
      and 05SH8269. The two recommendations identified in the draft audit report are
      addressed below.

      Recommendation 1 :

      The draft audit report recommends OHS require Columbus Urban League to
      refund $13,102, or amounts determined to be unreasonable, to the Federal
      government for conference attendance costs.

      OHS and the Office of Grants Management (OGM) concur with the recommendation for
      Columbus Urban League to refund $13 ,102 to the Federal government for
      unreasonable costs associated with out-of-state travel to attend the 2010 National
      Urban League conference . We agree conference costs of $13,102 incurred by the
      grantee were not reasonable for the performance of the award per 2 C.F.R. 230 ,
      Appendix A, § A.3 .

      The agency's approved Head Start budget included $8 ,000 for attendance of six staff at
      the 2010 National Urban League conference in Washington , D.C. The agency decided
      to send 17 staff, 11 more than approved , at an unbudgeted cost of $13 ,102. While the
      cost of a conference that disseminates technical information is allowable , Columbus
      Urban League sent 11 additional staff to the conference, which deviated from the
      agency's past practice regarding attendance at the national conference and increased
                                                                                               Page 2 of2




Ms. Fulcher 	                                                                Page 2

the award costs without justification. We agree Columbus Urban League did not act
prudently in incurring these additional costs, which were not reasonable for performance
under the grant. Therefore, the Regional Office will request the grantee refund $13,102
to the Federal government.

Recommendation 2:

The draft audit report recommends OHS require the grantee to calculate indirect
cost percentages based on the entire month of employee activity.

Although the grantee generally followed an acceptable methodology for allocating
administrative and executive staff salaries, it inappropriately used a two week time
period when calculating its monthly activity. Pursuant to 2 C.F.R. 230, Appendix A, §
C.1, indirect costs are those incurred for common or joint objectives that cannot be
readily identified with a particular final cost objective. We agree Columbus Urban
League did not comply with 2 C.F.R. 230, Appendix S, § 8(m) since it only used
personnel activity reports covering a two-week rather than monthly period to calculate
its base for distribution of salaries and wages.

In the OHS monitoring review report dated January 6, 2011, Columbus Urban League
was notified of a deficiency in its Head Start program since it failed to use after-the-fact
personnel activity reports to account for all activities for which employees were
compensated. The follow-up monitoring review report dated December 26, 2011 found
salaries and wages for central administrative staff were distributed based on an after­
the-fact determination of the actual activity of each employee.

In addition to the recommendations, OIG raised concerns with respect to the valuation
and allowability of volunteer parent activities for in-kind contributions for match
purposes. OIG found the volunteer hourly rate for parent activities was valued
incorrectly. Also, a sample of 100 records for at-home activities of parents that support
the curriculum found 22 activities did not qualify for match. OHS and OGM agree the
examples provided in the draft report were not appropriate activities for match. The
Regional Office will arrange for technical assistance to be provided to Columbus Urban
League. As part of the technical assistance effort, a review of the grantee's procedures
for non-federal share match and its valuation methodology will be completed, and
recommendations for improvement will be provided.

We are available to meet with you to discuss our positions and answer any questions you
may have. Thank you for the opportunity to comment on the draft report.

cc: 	 Ann Linehan, Deputy Director
      Office of Head Start
